Office of
Inspector General



             OPERATING AND PEFORMANCE PLAN

                 FISCAL YEARS 2003-2004




                   FARM CREDIT ADMINISTRATION
Farm Credit Administration                               Office of Inspector General
                                                         1501 Farm Credit Drive
                                                         McLean, Virginia 22102-5090
                                                         (703) 883-4030




August 13, 2002



The Honorable Michael M. Reyna
Chairman and Chief Executive Officer
Farm Credit Administration
1501 Farm Credit Drive
McLean, Virginia 22102-5090

Dear Mr. Reyna:

The enclosed document presents the Office of Inspector General’s (OIG) operating and
performance plan for Fiscal Years 2003 and 2004. Our mission remains the same and
our objectives and goals are similar to that of previous years. We have updated the
annual audit plan to reflect issues from which we select most of our assignments.

The accomplishment of our products and services correlate to fulfilling our goals and
objectives. I do not anticipate any structural changes in the OIG staffing plan.

Please do not hesitate to call me if you have any questions or comments.

Sincerely,


/S/

Stephen G. Smith
Inspector General

Enclosure

Copy to: Cheryl Macias
         Chief Operating Officer
                                             Table of Contents


Mission Statement, Office Goals and Objectives,
   and Audit Plan............................................................................................................Tab 1

Products and Services and Performance Measures........................................................Tab 2

Staffing and Resource Needs ..........................................................................................Tab 3

IRM Planning Call ............................................................................................................Tab 4

Budget and Justifications .................................................................................................Tab 5

Plus or Minus 10 percent .................................................................................................Tab 6

Appendices

        Assumptions............................................................................................................Tab 7
             OFFICE OF INSPECTOR GENERAL
                  Objectives and Goals

                           MISSION
The mission of the Office of Inspector General (OIG) is to be an agent of
positive change, striving for continuous improvement in the Farm Credit
Administration’s (FCA or Agency) management and program operations.


                OBJECTIVES and GOALS
•   Audit and evaluate the Agency’s programs and operations to
    promote economy, efficiency and effectiveness.
    1. Deliver quality audit and inspection products and services that
       are useful to the Board, management and Congress.
    2. Provide technical advice and assistance to Agency officials in
       developing sound management information and financial
       reporting systems and in streamlining programs and
       organizations.
    3. Continuously improve OIG staff, products and internal office
       administration.

•   Investigate observed, alleged or suspected wrongdoing to prevent
    and detect fraud, waste, abuse and mismanagement in Agency
    programs and operations.
    1. Effectively investigate and report administrative and criminal
       violations relating to FCA programs and personnel.
    2. Educate employees on their responsibility to report
       wrongdoing to the IG.
    3. Provide relevant information on results of investigative
       activities to relevant parties.

•   Review and make recommendations regarding existing and
    proposed legislation and regulations relating to Agency programs
    and operations and the Inspectors General community.
    1. Maintain and effective program for reviewing and commenting
       on proposed and existing regulations.

•   Work with the Chairman and Agency management to improve
    program management within the Agency and in our own office;
    and work with the Inspectors General community and other
    related organizations to address government-wide issues.
    1. Build relationships with program managers based on a shared
       commitment to improving program operations and
       effectiveness.
    2. Provide leadership to the OIG community.
    3. Contribute to special projects to improve the Agency.
                 AUDIT PLAN FY 2003 AND FY 2004
BACKGROUND

        This audit plan is based on input from management and staff as well as other
        issues identified by OIG staff. In particular, the CEO and the FCA Board
        have expressed an interest in independent assessments of significant
        programs of the Agency. The OIG has identified its focus issues in its
        Semiannual Report to Congress in the form of management challenges. OIG
        audits and inspections are planned to provide assurances to the CEO and
        FCA board that programs are operating effectively with appropriate controls.
        The Annual Audit Plan is intended to be a living document that is updated
        periodically throughout the year. It notes activities completed along with
        activities tentatively planned. Actual activities will most likely be selected
        from the areas listed below. However, actual coverage may change in order
        to be responsive to changing needs or circumstances.

MANAGEMENT CHALLENGES

        The OIG identified major challenges confronting the Farm Credit
        Administration as it works to fulfill its mission.        These management
        challenges were incorporated in the OIG semiannual report and have been
        updated to reflect changes and progress in meeting the challenges. The
        challenges fall into two general categories. First are the challenges related to
        the FCA’s core mission of ensuring a dependable supply of credit to
        agriculture through the institutions it has chartered. These challenges are
        often shaped and influenced by events that are outside the control of the
        Agency. Second, but no less important, are those challenges related to the
        Agency’s operations.

Organizational Leadership
        The Farm Credit Act provides for a full time three-member Board of Directors.
        The Board members are appointed by the President and confirmed by the
        Senate. The rapidly changing complex financial and banking environment
        makes the Board’s task both challenging and important. The Board must be
        able to engage in healthy professional policy debate and set a sound course
        for the Agency. A full strength Board is an important element in setting clear
        priorities and deliberating fully on the issues. In the 16 years since the
        inception of the FCA Board, it has been at full strength for less than half of
        that time. On August 6, 2002, a third Board member joined FCA, ending a
        19-month period with a two-member board.

        A relatively small full-time Board also presents a challenge in terms of
        defining the roles and responsibilities of the Board members relative to the
        governance of the Agency. As the membership on the Board changes, it
        needs to update its rules of operation to ensure it fulfills its statutory role in
        the governance of FCA. The Board will also need to review and revise the
        strategic plan for FCA.
Farm Credit System Risk
           The Farm Credit System (FCS) is a single industry lender and therefore is
           vulnerable to economic swings in the industry. FCA is challenged to balance
           the often-competing demands of ensuring the FCS fulfills it public purpose,
           proactively examining risk in the regulated institutions both individually and
           systemically, and controlling the cost of the regulator.

Financial Management
           FCA’s financial management system has undergone almost continuous
           change over the past five years. During this reporting period, the Agency
           completed its first financial statement using the services of the Department of
           Interior’s National Business Center. With a successful implementation,
           management’s challenge will be to leverage the system to deliver timely
           financial information that is critical to well informed management decisions.

Security
           In the aftermath of the events of September 11, 2001, security remains a
           major challenge for the Agency. In the August 2001 report on information
           security, the OIG found a strong foundation for security practices. However,
           the speed of change in the security environment will be a challenge for all
           government organizations. This is especially true for smaller organizations
           like FCA where an increased emphasis on physical and information security
           will compete with program areas for tight budget funding.

Human Capital
           FCA needs to develop a comprehensive, integrated approach to human
           capital issues. The FCA has not adopted a human capital strategy. In light of
           the changes in the competitive environment, advances in technology, and the
           tenure of its workforce, FCA needs to closely evaluate business processes,
           their associated costs, and alternatives.
Leveraging Technology
           The Agency has recognized that in order to meet the constraints of its
           budget, it must be able to maximize its return on investment in technology.
           FCA will need effective mechanisms to ensure that current and future staff
           has the technical skills to use technology to operate in an efficient manner.


Audit and Inspection Activities
Audit of Financial Statements
           The OIG contracts with an independent accounting firm to conduct an audit of
           the FCA financial statement. During FY 2003 the OIG will deliver the audit
           opinion on the financial statements as of September 30, 2002. In future
           years, there is an expectation by management and the OMB that audit
           opinions will be issued closer to the end of the fiscal year. OIG will
        incorporate more interim audit work in its contract to ensure expectations are
        met.
        During FY 2003, the OIG will compete the contract for an external auditor for
        the audit opinion on the financial statements as of September 30, 2003.
        Traditionally, audit costs and time associated with managing the contract is
        higher during the first year of an engagement.
Young, Beginning and Small Farmers
        The objective of this activity is to evaluate the work performed by the Office of
        Examination to examine compliance with YBS. This activity will follow up
        management’s actions to address GAO concerns from a recent report issued
        by the GAO.
GISRA
        During FY 2001 and FY 2002, Government Information Security Reform Act
        mandated an audit by the OIG. We anticipate that Congress will renew its
        mandate in some form.          Security remains a significant management
        challenge and the OIG anticipates computer security will remain a high
        priority. The OIG will continue to work with the CIO to incorporate issues of
        concern in audit activities.
Compensation
        This audit will determine whether the objectives of the FCA
        compensation program are being met. We expect to conduct the
        audit in three distinct phases. This approach will ensure that
        management gets the benefits of audit results as work on the overall
        objective is completed.
GPRA
        This activity will evaluate the agency’s compliance with the Government
        Performance and Review Act.         We will focus on the FCA board’s
        development of a strategic plan and an evaluation of the performance
        measures that the FCA uses to measure its impact and progress.
Inspections and Management Letters
        The OIG will conduct a variety of activities on areas and issues that merit
        review because of potential risk or operational weaknesses. These activities
        may be reported as management advisories or inspection reports. While
        planning these activities, we may determine the issues are broader and may
        expand the scope to audit the issues. Activities that OIG is currently
        considering or working on include:
            •   Agency Governance
            •   FCA Policy and Regulatory Development process
            •   Management Decision Model
            •   Implementation of risk based examinations
            •   OSMO effectiveness (will depend on scope of GAO Audit)
            •   LARS use and costs
•   Comparison of SESD and OPA – Cost and Products
•   OGC Legal Opinion process, efficiency, and effectiveness
•   FCA Commission Program
•   Borrower Complaint Handling
•   FOIA Program
•   Office Quality Control Programs
•   Evaluation of physical security practices
•   PPM Process
•   Improper Payments
•   Administrative operations of offices in McLean
•   E-Government at FCA
•   Competitive sourcing
                            PRODUCTS AND SERVICES
                          OFFICE OF INSPECTOR GENERAL
                                FISCAL YEAR 2003
The accomplishment of the Office of Inspector General’s products and services correlate
to fulfilling our goals and objectives.

              Product/Service1            Budget         % Budget        FTE       % FTE
              Audits, Inspections,
                                          $597,667           70%          3.56        70%
              and Review Products
              Investigations              $136,609           16%           .81        16%
              Regulation Review
                                          $ 17,076            2%           .10        2%
              and Comment
              Outreach                    $102,458           12%           .61        12%
              Centrally Budgeted
                                                   0           0            0           0
              Items
              Total                       $853,810           100%         5.08       100%


      Audits, Inspections, and Review Products. Approximately 6-10 evaluative reports
      per year (including annual financial audit). This includes technical advice and
      assistance to Agency officials in developing management information and financial
      reporting systems and in streamlining programs and organizations. It also includes
      survey production. At present, two surveys are produced in OIG for the direct benefit
      of the Agency for use in measuring performance. These two surveys are the Farm
      Credit System Survey and the Regulation Development Survey. In addition, each
      audit and inspection contains a customer survey (This is directly linked to FCA
      Strategic Plan.)
      Budget for FY 2003 - $597,667                                                            3.56 FTE

      Investigative Function. Review of allegations. Testing information provided to
      determine whether an investigation should be opened. Maintaining OIG HOTLINE.
      Directing FCS Borrower issues to Agency components.
      Budget for FY 2003 – $136,609                                                             .81 FTE

      Review and Comment on Proposed and Existing Regulations and Legislation.
      Responding to Congressional and Executive requests and inquiries. Reviewing and
      commenting on proposed and existing legislation and regulations affecting the
      Agency and the Inspectors General community.
      Budget for FY 2003 - $17,076                                                              .10 FTE




1
    Management, administrative support and leave are disbursed across the four program areas noted above.
Outreach Program. Educating employees about OIG’s role within the Agency.
Lend leadership to organizations directly contributing to the IG community. Making
contributions to special projects and work groups for improving the Agency, the OIG
community and the government. This includes but is not limited to: Semiannual
reports to the Agency Chairman and Congress, participation in external activities
such as membership on the Executive’s Council on Integrity and Efficiency, and
Council of Counsels to Inspectors General. We also participate in Agency efforts,
such as GPRA Initiative, Employee Council, Administrative Burden Workgroup,
Blacks in Government, Continuity of Operations Plan, FCA Compensation Study,
and the Federal Women’s Program.
Budget for FY 2003 - $102,458                                              .61 FTE
                            PRODUCTS AND SERVICES
                          OFFICE OF INSPECTOR GENERAL
                                FISCAL YEAR 2004
The accomplishment of the Office of Inspector General’s products and services correlate
to fulfilling our goals and objectives.

              Product/Service1            Budget         % Budget        FTE       % FTE
              Audits, Inspections,
                                          $606,091           70%         3.56         70%
              and Review Products
              Investigations              $138,535           16%           .81        16%
              Regulation     Review
                                           $ 17,317           2%           .10        2%
              and Comment
              Outreach                    $103,901           12%           .61        12%
              Centrally    Budgeted
                                                    0          0             0          0
              Items
              Total                       $865,844           100%        5.08        100%

      Audits, Inspections, and Review Products. Approximately 6-10 evaluative reports
      per year (including annual financial audit). This includes technical advice and
      assistance to Agency officials in developing management information and financial
      reporting systems and in streamlining programs and organizations. It also includes
      survey production. At present, two surveys are produced in OIG for the direct benefit
      of the Agency for use in measuring performance. These two surveys are the Farm
      Credit System Survey and the Regulation Development Survey. In addition, each
      audit and inspection contains a customer survey (This is directly linked to FCA
      Strategic Plan.)
      Budget for FY 2004 - $606,091                                                            3.56 FTE

      Investigative Function. Review of allegations. Testing information provided to
      determine whether an investigation should be opened. Maintaining OIG HOTLINE.
      Directing FCS Borrower issues to Agency components.
      Budget for FY 2004 – $138,535                                                             .81 FTE

      Review and Comment on Proposed and Existing Regulations and Legislation.
      Responding to Congressional and Executive requests and inquiries. Reviewing and
      commenting on proposed and existing legislation and regulations affecting the
      Agency and the Inspectors General community.
      Budget for FY 2004 - $17,317                                                              .10 FTE




1
    Management, administrative support and leave are disbursed across the four program areas noted above.
Outreach Program. Educating employees about OIG’s role within the Agency.
Lend leadership to organizations directly contributing to the IG community. Making
contributions to special projects and work groups for improving the Agency, the OIG
community and the government. This includes but is not limited to: Semiannual
reports to the Agency Chairman and Congress, participation in external activities
such as membership on the Executive’s Council on Integrity and Efficiency, and
Council of Counsels to Inspectors General. We also participate in Agency efforts,
such as GPRA Initiative, Employee Council, Administrative Burden Workgroup,
Blacks in Government, Continuity of Operations Plan, FCA Compensation Study,
and the Federal Women’s Program.
Budget for FY 2004 - $103,901                                              .61 FTE
                            OFFICE OF INSPECTOR GENERAL
                           FY 2003 PERFORMANCE MEASURES
             AUDITS AND EVALUATIONS OF AGENCY PROGRAMS AND OPERATIONS

AGENCY              OIG                                       PERFORMANCE                                                  OUTCOME/
 GOAL              GOAL                                         MEASURE                                                     IMPACT

1 and 2   1. Deliver quality audit,   Audits and inspections are relevant. Audit coverage includes all    FCA programs and operations are more
             inspection, and review   mandated audits and at least 75% of those suggested by the          effective.
             products and services    Board and management.
             that are useful to the                                                                       Waste in Agency programs and operations is
             Board, management        Risk is addressed. 100% of OIG audits are performed in high         reduced.
             and/or the Congress.     risk/high $ programs and activities and/or are tied to the Agency
                                      strategic planning goals.                                           Increased Agency compliance with laws,
                                                                                                          regulations and internal policies and
                                      Findings made during audit fieldwork are recognized and             procedures.
                                      corrected by management prior to drafting of the audit report.
                                                                                                          The Agency’s stature and reputation is
                                      Products are timely, i.e. average time to complete audits and       elevated in the eyes of Congress, the
                                      issue draft reports will not exceed 6 months.                       Administration, the FCS, FCA employees and
                                                                                                          the public.
                                      Audits are constructive. At least 75% of audit products contain
                                      recommendations to improve Agency operations.                       FCA is more effective in carrying out its
                                                                                                          mission.
                                      The Agency accepts at least 80% of OIG audit
                                      recommendations.                                                    The OIG is more effective in promoting
                                                                                                          economy, effectiveness and efficiency within
                                      The Agency implements all corrective actions prescribed by          the Agency.
                                      management decisions.
                                                                                                          FCA continues to get an unqualified audit
                                                                                                          opinion on financial statements.


          2. Provide technical        The IG advises the Chairman concerning policy direction or          OIG input and advice contributes to Agency
             advice and assistance    administrative priorities.                                          decisions and actions that are more complete
             to Agency officials in                                                                       and valid at their inception.
             developing sound         OIG performs analysis and provides technical advice to
             management               management concerning accounting, management systems and            Increase in management requests for advice,
             information and          controls, and performance measures.                                 review and technical assistance.
             financial reporting
             systems and in
             streamlining programs
             and organizations.
                           OFFICE OF INSPECTOR GENERAL
                          FY 2003 PERFORMANCE MEASURES
            AUDITS AND EVALUATIONS OF AGENCY PROGRAMS AND OPERATIONS

AGENCY              OIG                                        PERFORMANCE                                               OUTCOME/
 GOAL              GOAL                                          MEASURE                                                  IMPACT

         3. Continuous                 Customer survey feedback is used to improve products and         Peer review reports provide an unqualified
            improvement of OIG         services.                                                        opinion that OIG audit work meets or exceeds
            staff, products and                                                                         quality audit standards prescribed by GAO
            internal administration.   OIG training ensures the technical proficiency of staff.         and the PCIE/ECIE.

                                       OIG implements administrative improvements identified through    Customer survey feedback evidences
                                       reviews of other Agency programs and through staff involvement   increased satisfaction with report practices.
                                       with the professional community.
                                                                                                        The Inspector General’s opportunity to
                                                                                                        facilitate positive change within the Agency is
                                                                                                        enhanced by the quality and credibility of OIG
                                                                                                        products and advice.




                                                            Page 14 of 24
                                              OFFICE OF INSPECTOR GENERAL
                                             FY 2003 PERFORMANCE MEASURES
                                                      INVESTIGATIONS


AGENCY                 OIG                                         PERFORMANCE                                               OUTCOME/
 GOAL                 GOAL                                           MEASURE                                                  IMPACT

1 and 2   1. Administrative and             Investigative reports are timely and presented in an objective    Administrative action, convictions or
             criminal violations relating   and factual manner. Memoranda are issued to management            pleas are obtained for employees and/or
             to FCA programs and            describing internal control weaknesses or program deficiencies    contractors found guilty of wrongdoing.
             personnel are effectively      found during the investigative process with suggestions to
             investigated and reported.     prevent and/or detect future wrongdoing.                          Management actions taken against
                                                                                                              employees serve as a deterrent to future
                                            70% of active cases will be less than two years old (from the     wrongdoing.
                                            date the case was opened).
                                                                                                              FCA internal policies, procedures and
                                            100% of employee cases without criminal prosecution potential     controls are strengthened to prevent
                                            will be completed within one year from opening the case.          and/or detect future wrongdoing.

                                            Allegations of wrongdoing are received in a timely manner and     Investigations are more successful
          2. FCA employees and              are supported by specific information.                            because they are initiated in a timelier
             managers recognize their                                                                         manner and have better information.
             responsibility to
             immediately report                                                                               FCA employees are more willing to
             observed or suspected                                                                            report real or suspected wrongdoing
             wrongdoing to the IG.                                                                            because they trust the competence and
                                                                                                              fairness of OIG’s investigations.

          3. Agency officials and           Summaries of investigations and the resulting administrative or   The Chairman and Congress are better
             Congress are kept fully        judicial actions taken are incorporated into the Semiannual       informed about OIG investigations,
             and currently informed of      Report to Congress, along with any disagreements on the           administrative and judicial
             problems found in the          actions taken or failure of management to act in a timely and     consequences.
             process of and resulting       responsible fashion.
             from investigative                                                                               Public confidence in the integrity of FCA
             activities.                    Findings made during the investigative process concerning the     programs and internal operations are
                                            problem at issue or systemic problems are recognized and          heightened.
                                            corrected or mediated by management.




                                                                Page 15 of 24
                                        OFFICE OF INSPECTOR GENERAL
                                       FY 2003 PERFORMANCE MEASURES
                                   REVIEW OF LEGISLATION AND REGULATIONS


AGENCY            OIG                                      PERFORMANCE                                                  OUTCOME/
 GOAL            GOAL                                        MEASURE                                                     IMPACT

  2      1. Maintain an            Processes are established and documented for identifying and         OIG input is part of the decision making
            effective program      circulating (as appropriate) relevant documents.                     process in approving or amending
            for reviewing and                                                                           legislation, regulations, circulars and other
            commenting on          Constructive comments on relevant documents are submitted by         policy positions.
            proposed and           the deadlines requested by the office, Agency or staff circulating
            existing legislation   comments.                                                            Constructive criticism and creative
            and regulations                                                                             alternatives offered in OIG comments
            effecting the          Document review activity is summarized for inclusion in the          improve the quality and usefulness of
            Agency and the         Semiannual Report to Congress.                                       documents initiated by the Agency.
            Inspectors General
            community.                                                                                  FCA Board and management are
                                                                                                        informed about the status of new or
                                                                                                        pending legislation or regulations initiated
                                                                                                        externally.




                                                             Page 16 of 24
                                             OFFICE OF INSPECTOR GENERAL
                                            FY 2004 PERFORMANCE MEASURES
                                                       OUTREACH


AGENCY              OIG                                       PERFORMANCE                                                 OUTCOME/
 GOAL              GOAL                                         MEASURE                                                    IMPACT

1 and 2   1. Agency personnel        Develop and maintain educational brochures or pamphlets               Agency employees’ acceptance of and
             understand and          describing OIG roles and activities.                                  cooperation with OIG activities is
             accept OIG’s role                                                                             improved through better understanding.
             within FCA and the      Facilitate feedback from Agency employees and refine products         OIG programs and products are improved
             community at large.     and practices based on the feedback to OIG products and               through feedback from Agency
                                     educational materials                                                 employees.

          2. OIG staff provides      Time and resources are provided to OIG staff members as an            Projects and activities of adjunct
             leadership to           incentive to contribute to outside organizations by serving on        organizations such as the AGA, IIA,
             organizations           committees and holding offices.                                       PCIE/ECIE, CCIG, FLETC, and IGATI are
             directly contributing                                                                         improved by OIG staff contributions and
             to the Inspectors                                                                             participation.
             General
             community.                                                                                    The Inspectors General community is
                                                                                                           more credible and effective.

          3. OIG staff               OIG staff will participate in projects that contribute to achieving   Management practices at the Agency are
             contributes to          the vision of a better Agency and government.                         improved by OIG staff participation in FCA
             special projects for                                                                          special projects.
             improving the
             Agency, the OIG                                                                               FCA programs and operations are more
             community and the                                                                             effective and efficient.
             government.




                                                                Page 17 of 24
                                    OFFICE OF INSPECTOR GENERAL
                                   FY 2004 PERFORMANCE MEASURES
                                              OUTREACH


AGENCY            OIG                                PERFORMANCE                                                  OUTCOME/
 GOAL            GOAL                                  MEASURE                                                     IMPACT

 1 and 2     1.Deliver quality     Audits and inspections are relevant. Audit coverage           FCA programs and operations are more
               audit,              includes all mandated audits and at least 75% of those        effective.
               inspection, and     suggested by the Board and management.
               review products                                                                   Waste in Agency programs and operations is
               and services        Risk is addressed. 100% of OIG audits are performed in        reduced.
               that are useful     high risk/high $ programs and activities and/or are tied to
               to the Board,       the Agency strategic planning goals.                          Increased Agency compliance with laws,
               management                                                                        regulations and internal policies and
               and/or the          Findings made during audit fieldwork are recognized and       procedures.
               Congress.           corrected by management prior to drafting of the audit
                                   report.                                                       The Agency’s stature and reputation is
                                                                                                 elevated in the eyes of Congress, the
                                   Products are timely, i.e. average time to complete audits     Administration, the FCS, FCA employees and
                                   and issue draft reports will not exceed 6 months.             the public.

                                   Audits are constructive. At least 75% of audit products       FCA is more effective in carrying out its
                                   contain recommendations to improve Agency operations.         mission.
                                   The Agency accepts at least 80% of OIG audit
                                   recommendations.                                              The OIG is more effective in promoting
                                                                                                 economy, effectiveness and efficiency within
                                   The Agency implements all corrective actions prescribed       the Agency.
                                   by management decisions.
                                                                                                 FCA continues to get an unqualified audit
                                   The IG advises the Chairman concerning policy direction       opinion on financial statements.
                                   or administrative priorities.
                                                                                                 OIG input and advice contributes to Agency
           2.      Provide         OIG performs analysis and provides technical advice to        decisions and actions that are more complete
             technical advice      management concerning accounting, management                  and valid at their inception.
             and assistance to     systems and controls, and performance measures.
             Agency officials in                                                                 Increase in management requests for advice,
             developing sound                                                                    review and technical assistance.
             management
             information and




                                                     Page 18 of 24
                                 OFFICE OF INSPECTOR GENERAL
                                FY 2004 PERFORMANCE MEASURES
                                           OUTREACH

AGENCY          OIG                             PERFORMANCE                                           OUTCOME/
 GOAL          GOAL                               MEASURE                                              IMPACT
          financial reporting
          systems and in
          streamlining                                                                Peer review reports provide an unqualified
          programs and                                                                opinion that OIG audit work meets or
          organizations.                                                              exceeds quality audit standards prescribed
                                Customer survey feedback is used to improve           by GAO and the PCIE/ECIE.
                                products and services.
         3. Continuous          OIG training ensures the technical proficiency of
            improvement of      staff.                                                Customer survey feedback evidences
            OIG staff,
                                                                                      increased satisfaction with report
            products and        OIG implements administrative improvements            practices.
            internal            identified through reviews of other Agency programs
            administration.     and through staff involvement with the professional   The Inspector General’s opportunity to
                                community.                                            facilitate positive change within the Agency is
                                                                                      enhanced by the quality and credibility of OIG
                                                                                      products and advice.




                                                Page 19 of 24
                                              OFFICE OF INSPECTOR GENERAL
                                 FY 2004 PERFORMANCE MEASURES
                                                     INVESTIGATIONS

AGENCY             OIG                           PERFORMANCE                                             OUTCOME/
 GOAL             GOAL                             MEASURE                                                IMPACT


1 and 2   1. Administrative      Investigative reports are timely and presented in an   Administrative action, convictions or pleas are
            and criminal         objective and factual manner. Memoranda are issued     obtained for employees and/or contractors
            violations           to management describing internal control              found guilty of wrongdoing.
            relating to FCA      weaknesses or program deficiencies found during the
            programs and         investigative process with suggestions to prevent      Management actions taken against employees
            personnel are        and/or detect future wrongdoing.                       serve as a deterrent to future wrongdoing.
            effectively
            investigated         70% of active cases will be less than two years        FCA internal policies, procedures and
            and reported.        old (from the date the case was opened).               controls are strengthened to prevent and/or
                                                                                        detect future wrongdoing.
                                 100% of employee cases without criminal
                                 prosecution potential will be completed within         Investigations are more successful because
                                 one year from opening the case.                        they are initiated in a timelier manner and
                                                                                        have better information.
          3.        FCA
               employees and
                                                                                        FCA employees are more willing to report
               managers
                                                                                        real or suspected wrongdoing because they
               recognize their
                                                                                        trust the competence and fairness of OIG’s
               responsibility
                                                                                        investigations.
               to immediately
               report
                                 Allegations of wrongdoing are received in a The Chairman and Congress are better
               observed or
                                 timely manner and are supported by specific informed about OIG investigations,
               suspected
                                 information.                                administrative and judicial consequences.
               wrongdoing to
               the IG.
                                 Summaries of investigations and the resulting          Public confidence in the integrity of FCA
                                 administrative or judicial actions taken are           programs and internal operations are
          3. Agency
                                 incorporated into the Semiannual Report to             heightened.
             officials and
                                 Congress, along with any disagreements on the
             Congress are
                                 actions taken or failure of management to act in
             kept fully and
                                 a timely and responsible fashion.
             currently
             informed of
                                 Findings made during the investigative process
             problems
                                 concerning the problem at issue or systemic
             found in the
                                 problems are recognized and corrected or
             process of and
                                 mediated by management
                                                                                                                                    Page 20 of 24
                                    OFFICE OF INSPECTOR GENERAL
                          FY 2004 PERFORMANCE MEASURES
                                          INVESTIGATIONS
AGENCY       OIG                       PERFORMANCE                OUTCOME/
 GOAL       GOAL                         MEASURE                   IMPACT

         resulting from   mediated by management.
         investigative
         activities.




                                                                             Page 21 of 24
                                                OFFICE OF INSPECTOR GENERAL
                                  FY 2004 PERFORMANCE MEASURES
                                 REVIEW OF LEGISLATION AND REGULATIONS

AGENCY          OIG                             PERFORMANCE                                           OUTCOME/
 GOAL          GOAL                               MEASURE                                              IMPACT


  2      1. Maintain an       Processes are established and documented for            OIG input is part of the decision making
            effective         identifying and circulating (as appropriate) relevant   process in approving or amending legislation,
            program for       documents.                                              regulations, circulars and other policy
            reviewing and                                                             positions.
            commenting on     Constructive comments on relevant documents are
            proposed and      submitted by the deadlines requested by the office,     Constructive criticism and creative
            existing          Agency or staff circulating comments.                   alternatives offered in OIG comments
            legislation and                                                           improve the quality and usefulness of
            regulations       Document review activity is summarized for inclusion    documents initiated by the Agency.
            effecting the     in the Semiannual Report to Congress.
            Agency and the                                                            FCA Board and management are informed about
            Inspectors                                                                the status of new or pending legislation or
            General                                                                   regulations initiated externally.
            community.




                                                                                                                              Page 22 of 24
                                           OFFICE OF INSPECTOR GENERAL
                             FY 2004 PERFORMANCE MEASURES
                            REVIEW OF LEGISLATION AND REGULATIONS

AGENCY             OIG                               PERFORMANCE                                              OUTCOME/
 GOAL             GOAL                                 MEASURE                                                 IMPACT


1 and 2   2.        Agency        Develop and maintain educational brochures or               Agency employees’ acceptance of and
               personnel          pamphlets describing OIG roles and activities.              cooperation with OIG activities is improved
               understand and                                                                 through better understanding. OIG programs
               accept OIG’s       Facilitate feedback from Agency employees and refine        and products are improved through
               role within FCA    products and practices based on the feedback to OIG         feedback from Agency employees.
               and the            products and educational materials
               community at                                                                   Projects and activities of adjunct
               large.             Time and resources are provided to OIG staff members as     organizations such as the AGA, IIA,
                                  an incentive to contribute to outside organizations by      PCIE/ECIE, CCIG, FLETC, and IGATI are
          4. OIG staff            serving on committees and holding offices.                  improved by OIG staff contributions and
            provides                                                                          participation.
            leadership to
            organizations                                                                     The Inspectors General community is more
            directly                                                                          credible and effective.
            contributing to
            the Inspectors
            General                                                                           Management practices at the Agency are
            community.            OIG staff will participate in projects that contribute to   improved by OIG staff participation in FCA
                                  achieving the vision of a better Agency and                 special projects.
          5. OIG staff            government.
               contributes to                                                                 FCA programs and operations are more
               special projects                                                               effective and efficient.
               for improving
               the Agency, the
               OIG community
               and the
               government.




                                                         Page 23 of 24
                       OFFICE OF INSPECTOR GENERAL
                FY 2004 PERFORMANCE MEASURES
                REVIEW OF LEGISLATION AND REGULATIONS
AGENCY    OIG                PERFORMANCE                OUTCOME/
 GOAL    GOAL                  MEASURE                   IMPACT




                                Page 24 of 24
